Federal Deposit Insurance Corporation
Washington, D.C. 20434                                                          Office of Inspector General



                                                         October 19, 1999



   MEMORANDUM TO:                Chairman Tanoue



   FROM:                         Gaston L. Gianni, Jr.
                                 Inspector General


   SUBJECT:                      Audit Memorandum – Results of OIG Review of the
                                 Backup Examination Process and DOS’s Efforts to Monitor
                                 Megabank Insurance Risks


   We are issuing this audit memorandum to communicate the results of our review of the
   Division of Supervision’s (DOS) efforts to monitor risk at insured institutions for which
   the FDIC is not the primary federal regulator. Our review focused on the backup
   examination process for insured thrifts, national banks and state member banks, and
   DOS’s efforts to monitor the risks associated with the nation’s largest and most complex
   financial institutions, often referred to as the “megabanks.” DOS has defined the
   “megabanks” as insured institutions with $25 billion or more in total assets. This
   memorandum offers suggestions for your consideration regarding the need to strengthen
   the cooperation between the FDIC and the other federal banking regulators, and to
   improve the effectiveness with which DOS carries out the Corporation’s responsibility to
   monitor its insurance risk. We consider these issues to be extremely important, and my
   office will continue to monitor and evaluate developments in these areas.

   In reviewing the process whereby the FDIC participates in safety and soundness
   examinations in a backup capacity, we focused on assessing the level of cooperation DOS
   has received from the Office of the Comptroller of the Currency (OCC), the Board of
   Governors of the Federal Reserve System (FRB), and the Office of Thrift Supervision
   (OTS). For the 42-month period ending March 31, 1999, we identified 90 instances of
   backup activity. Overall, we found that DOS regional managers believe that they have
   good working relationships with the other federal regulators, and that when dealing with
   small and medium-sized institutions, there have been few substantive problems in sharing
   information and gaining access to banks. The most troubling situation involved the
   events leading to the closing of The First National Bank of Keystone, Keystone, West
Virginia. On September 1, 1999, the OCC closed Keystone, a $1.1 billion institution,
after finding evidence of apparent fraud that resulted in the depletion of the bank’s
capital.

Regarding megabank monitoring, we found that the DOS case managers (CMs) generally
describe the level of cooperation they receive from their federal regulatory counterparts
as satisfactory, and they generally receive the information they request. At the same
time, however, the CMs are not sure of the universe of available information maintained
by the primary regulators nor are they aware of the full range of a bank’s off-balance
sheet activities. Through numerous interviews with the CMs, we learned that there is a
substantial gap between the CMs’ perceptions of what they believe DOS Washington
expects from them, in terms of being knowledgeable about their assigned institution(s),
and their actual level of knowledge. According to many CMs, Washington’s
expectations are not being met, primarily because much of the information that they have
access to is dated and/or does not contain sufficient detail on which to assess risk. Given
the information constraints under which the CMs operate, DOS Washington management
believes the CMs are doing a good job in meeting goals and expectations.

We also noted that DOS’s approach to monitoring the insurance risks posed by
megabanks is based on a decentralized strategy that relies on the abilities of its case
managers to develop effective relationships with their regulatory counterparts. The
effectiveness of these relationships is subject to a range of factors, including the
experience levels and personalities of the individuals involved and the fact that the 23
megabanks supervised by the OCC are centrally managed from Washington. Finally, we
noted that the guidance DOS Washington has provided to the CMs is rather general
relative to the goals and objectives for monitoring the insurance risks posed by
megabanks.

Over the past several years, the nation’s banking industry has experienced unprecedented
consolidation which has created a number of extremely large and complex financial
conglomerates. Of the $4.5 trillion in assets controlled by the 39 largest institutions, the
FDIC is the primary regulator for only $77 billion in 2 institutions. Consolidation in the
banking industry may present increased risks for the FDIC as the deposit insurer because
the deposit insurance funds face larger potential losses from the failure of a single large
consolidated institution. Since the Corporation does not have a presence in the other 37
institutions, it is heavily dependent on the OCC, the FRB, and the OTS to provide the
FDIC with the information needed to monitor the insurance risks associated with
megabank activities.

We have developed suggestions for your consideration to address the concerns we have
identified. These suggestions are included on pages 8, 16, and 17 of the attached
document which presents the results of our review. The suggestions are intended to
strengthen the cooperation between the FDIC and the other primary regulators and
improve DOS’s effectiveness in carrying out the Corporation’s responsibility to monitor
its insurance risk.




                                             2
We wish to thank DOS management for the cooperation and courtesies extended during
the course of this review. My management team is available at any time to meet with you
and DOS to discuss the issues addressed in this document.

Attachment

cc:    Vice Chairman Hove
       John F. Bovenzi
       James L. Sexton




                                          3
                                                                              Attachment



RESULTS OF OIG REVIEW OF THE BACKUP EXAMINATION PROCESS
  AND DOS’S EFFORTS TO MONITOR MEGABANK INSURANCE RISKS


BACKGROUND

Financial Market Dynamics Are Expanding the FDIC’s Information Needs

In recent years, major banks have been rapidly developing into enormous and complex
financial conglomerates. The total value of bank mergers in 1998 alone, $233 billion,
exceeds the combined total from the previous 6 years. The banking industry has recently
undergone such a widespread consolidation that as of March 31, 1999, only 39
institutions controlled half of the country’s banking assets, almost $4.5 trillion dollars.
This trend toward the consolidation of financial resources is proceeding in dramatic
fashion and will continue to place increasing risks on the deposit insurance funds.

In testimony before the House Committee on Banking and Financial Services (March 25,
1999), the Director of the FDIC’s Division of Insurance pointed out that megabanks are
commanding an increasing presence in the U.S. economy. The Director stated that,
“While 41 banking companies held 25 percent of total domestic deposits in 1984, it took
only 11 companies to account for the 25 percent share by the end of 1997.” After the
large mergers announced in 1998, just 7 banking companies hold 25 percent of domestic
deposits. The Director also stated that the consolidation of banks serving different
markets can diversify risk, decrease earnings volatility, and moderate the effect of
economic downturns on the largest institutions, thereby decreasing the likelihood of their
failure. However, consolidation in the banking industry may also increase risks for the
FDIC because the deposit insurance funds face larger potential losses from the failure of
a single large consolidated institution. Insurance is based on the concept of diversifying
risk, and as industry assets become more concentrated in fewer institutions, the FDIC’s
risk becomes less diversified.

Today’s megabanks not only control a high percentage of banking resources but also are
frequently involved in non-traditional and highly complex business activities. In today’s
fast-moving environment, the financial conditions faced by the largest banks can change
direction with very little warning. The near collapse of Long-Term Capital Management
in September 1998 underscores the dangers that exist and highlights the need for the
banking regulators to cooperate with each other and share information. Despite the risks
to the deposit insurance funds posed by this crisis, the FDIC was not a party to the
recapitalization talks. Only afterwards was the FDIC able to work with the other
regulators to assess the extent of exposure to insured institutions and identify the risks
involved. As the banking industry becomes increasingly affected by rapidly developing
global financial forces, the need for the regulators to cooperate and share timely
information will continue to increase in importance.

Of the $4.5 trillion in assets controlled by the 39 largest financial institutions, the FDIC is
the primary federal regulator for only $77 billion in two institutions1 (see Table 1).
Because the FDIC does not have a presence in 37 of the country’s 39 megabanks, it is
almost totally dependent on the other federal regulators for monitoring the largest risks to
the insurance funds. The failure of a megabank, along with the potential closing of
closely-affiliated smaller institutions, could result in huge losses to the insurance funds
and create a crisis that the FDIC would be responsible for resolving.

                                           Table 1
                             Total Assets Owned by Megabanks
                              (by Primary Federal Regulator)
                                    as of March 31, 1999



                                                     FDIC 2%
                                   FRB 25%




                         OTS 6%                                       OCC 67%




             OCC $2.993 Trillion (23 Banks)                OTS $269 Billion (3 Thrifts)


             FRB $1.124 Trillion (11 Banks)                FDIC $77 Billion (2 Banks)



        Source: DOS data – Financial Institutions with Assets of $25 Billion or More as
                of March 31, 1999.


Because of the risk each megabank poses to the deposit insurance funds, FDIC should
have the most up-to-date information available on the activities of these megabanks,
information that goes beyond the point-in-time snapshots of events that the Corporation
presently receives from the other federal regulators to assess risk. Banks today are
subject to market dynamics that move much more quickly than quarterly financial
information is able to track. As the FDIC Chairman pointed out in testimony given on




1
  These two institutions are Regions Bank, Birmingham, Alabama, and Branch Banking and Trust
Company, Winston-Salem, North Carolina.


                                                 2
the crisis involving Long-Term Capital Management, the regulation and supervision of
the financial industry must be as dynamic as the industry itself. 2

Effective supervision of the nation’s largest financial institutions, some with worldwide
operations, requires continual monitoring and the commitment of extensive resources on
the part of the Office of the Comptroller of the Currency (OCC), the Federal Reserve
Board (FRB), and, to a lesser extent, the Office of Thrift Supervision (OTS). Although
the FDIC is not the primary regulator of 37 of the nation’s 39 largest financial
institutions, it would be called on to deal with the failure of a megabank and its
catastrophic consequences. Thus, the Corporation has a compelling need to become more
familiar with the activities of these institutions and with the current condition of any
developing risks. Because it is not feasible for the FDIC to attempt to duplicate the
efforts of the other regulators, nor would the law permit such duplication, we believe the
Corporation needs to develop closer ties to its regulatory counterparts and work toward
obtaining real-time information relative to megabank financial activities. We also feel
that for the FDIC to be successful in working more closely with the other regulators, any
efforts undertaken to enhance regulatory cooperation will need to be initiated and pursued
by the highest levels of corporate management.


Backup Examination Authority

As early as 1950, the Board of Directors of the FDIC had the unilateral authority to
examine any insured bank without concurrence by other regulators. Section 10(b)(3) was
added to the Federal Deposit Insurance Act by Public Law No. 797, effective September
21, 1950. This subsection, Special Examination of Any Insured Depository Institution,
provides that FDIC examiners shall have power, on behalf of the Corporation, to make
any special examination of any insured depository institution whenever the Board of
Directors determines a special examination of any such depository institution is necessary
to determine the condition of such depository institution for insurance purposes. That
unilateral authority still exists pursuant to the Federal Deposit Insurance Act.

In 1982, the Board authorized the Division of Bank Supervision (DBS, now DOS) to
assign FDIC examiners to participate in the examination of a national or state member
bank when invited by the OCC or the FRB, respectively, and to negotiate with the OCC
and the FRB on the “triggering points” for the issuance of such invitations.
Subsequently, on December 23, 1983, the FDIC Board of Directors authorized FDIC
examiners to participate in the examination of national banks, pursuant to certain terms
and conditions contained in the “Cooperative Examination Program” agreed to by the
OCC Senior Deputy for Bank Supervision and the FDIC Director of DBS as of December
2, 1983.




2
  Chairman Tanoue’s testimony on Long-Term Capital Management, L.P., before the Committee on
Banking and Financial Services, United States House of Representatives, October 1, 1998.


                                                3
In August 1989, the Financial Institutions Reform, Recovery, and Enforcement Act of
1989 (FIRREA) created the Savings Association Insurance Fund and extended FDIC’s
special exam authority to cover insured savings associations. In connection with these
changes, the FDIC Board of Directors delegated authority to the DOS Director to: (1)
initiate an examination or special examination of any insured savings association to
determine its condition for insurance purposes; and (2) work toward establishing a
cooperative examination program with the OTS for insured savings associations. During
1989 through 1990, the FDIC examined many federally chartered savings and loan
associations throughout the country pursuant to a directive from FDIC Chairman
Seidman.

The enactment of FIRREA also caused the composition of the FDIC Board of Directors
to be increased from 3 to 5 members. The Vice Chairman and the Director of the Office
of Thrift Supervision were positions added to the Board.

In 1993, the FDIC Board of Directors rescinded the earlier delegations of special exam
authority and decided not to perform any special examinations unless extraordinary
threats to a deposit insurance fund could be demonstrated. Any such examination would
require Board approval.

During 1995, the Board delegated authority to the Director of DOS to perform
examinations, visitations, and/or other examination activities if concurrence exists with
the primary federal regulator. The DOS Director, in turn, redelegated this authority to the
Deputy Director(s), Associate Director(s), Regional Directors, and Deputy Regional
Directors. Consequently, should DOS identify emerging risks or have serious concerns
relative to an institution’s risk profile, DOS cannot participate in any safety and
soundness examination activity, other than offsite analysis, without the concurrence of
the primary federal regulator unless a case to the Board of Directors is prepared, accepted
and approved.


DOS’S BACKUP EXAMINATION ACTIVITIES – THE EVENTS LEADING
UP TO THE CLOSING OF KEYSTONE DEMONSTRATE THE CRITICAL
NEED FOR COOPERATION BETWEEN THE REGULATORS

In reviewing the process whereby the FDIC participates in safety and soundness
examinations in a backup capacity, we focused on assessing the level of cooperation the
Corporation has received from the OCC, the FRB and the OTS. For the period October
1, 1995 through March 31, 1999, we identified 90 instances where DOS participated in
backup exams in 67 banks. While the asset size of the banks for which data was
available ranged between $14 million and $1.5 billion, many of the banks were in the
$100 million to $300 million asset-size range. Table 2 summarizes backup exam activity
by DOS region during the 42-month period reviewed.




                                            4
                                        Table 2
                          Instances of Backup Examinations
                                 10/95 through 3/99

DOS Region             OCC                OTS               FRB               Totals
Atlanta                  11                8                   1                 20
Boston                   0                 0                   0                 0
Chicago                  3                 4                   2                 9
Dallas                   11                1                   4                 16
Kansas City              0                 1                   0                 1
Memphis                  5                 0                   0                 5
New York                 1                 2                   0                 3
San Francisco            13                21                  2                 36
   Totals                44                37                  9                 90


Overall, we found that DOS regional managers believe they have good working
relationships with the other federal regulators, and that when dealing with small and
medium-sized banks, there have been few substantive problems regarding information
sharing and gaining access to banks. We learned of 3 instances during the period
reviewed where DOS proposed to join another federal bank regulator in a safety and
soundness examination and was initially denied permission. Two cases involved the
OCC and the remaining case involved the OTS. In all 3 instances, the other regulators
reversed their initial positions within 6 months and DOS resolved the matters before
taking these cases to the Board.

Two additional requests to the OCC for permission to participate in safety and soundness
exams (both made by the same regional office during April 1999) were unresolved at the
time we concluded our review. The responsible OCC district office had denied DOS’s
initial requests and referred them to its Washington office for further consideration.


The First National Bank of Keystone

The most notable case where the OCC initially denied DOS permission to participate in
an exam involved The First National Bank of Keystone, Keystone, West Virginia
(Keystone). This case illustrates how the FDIC’s backup authority can be subject to
constraints imposed by the primary regulator that can limit the FDIC’s ability to assess
risks to the deposit insurance funds.

On September 1, 1999, the OCC closed Keystone, a $1.1 billion institution, after finding
evidence of apparent fraud that resulted in the depletion of the bank’s capital. The FDIC
was named receiver and the resulting loss to the Bank Insurance Fund is estimated to
range from $750 to $850 million. Keystone was a non-traditional independent bank that
was heavily involved in acquiring and securitizing FHA Title I loans (subprime property


                                            5
improvement loans). The FDIC had been concerned about Keystone’s risk to the deposit
insurance fund since 1995, as indicated by DOS lowering the OCC’s overall composite
ratings of Keystone three times.

The FDIC notified the OCC of Keystone’s first rating change in November 1995,
lowering the bank’s composite rating from a 2 to a 3. This downgrade was partially
based on the bank’s inability to reconcile its $130 million volume of FHA Title I loans
obtained from various loan originators throughout the country through its wholly-owned
mortgage subsidiary, Keystone Mortgage Corporation. The OCC reported that the
absence of basic accounting controls, such as account reconcilements, and poor
management information systems could have resulted in a reduction in bank capital of
approximately $8.3 million. Equity capital at the bank as of March 31, 1995, totaled
$28.3 million and total assets equaled $208 million.

In February 1996, the FDIC requested to participate in the next OCC examination, with
DOS’s role limited to a review of Keystone’s FHA Title 1 program and related issues.
DOS examiners participated in a backup capacity in the OCC’s June 1996 examination of
the bank. After reviewing the Title 1 program, the FDIC examiners concluded that the
credit risk was minimal and loss exposure after FHA insurance was reasonable. Based on
the examination findings, the overall deficiencies cited in the 1995 exam had been
addressed, with one exception related to an outside audit. The OCC assigned the bank a
composite rating of 2, and DOS concurred.

In September 1997, DOS Atlanta received a letter regarding the assignment of Keystone
to the OCC’s Washington Office, based on its condition. DOS received the OCC’s July
1997 report of examination in December 1997. The OCC’s report cited a number of
managerial and operational deficiencies that DOS believed presented an increasing risk to
the Bank Insurance Fund. The risk profile depicted in the OCC’s July 1997 examination
report was high, with serious weaknesses noted in asset quality, earnings, and
management. Due to the magnitude of the bank’s problems, the FDIC changed the
composite rating the OCC had assigned to Keystone from a 3 to a 4.

On February 13, 1998, as a result of serious safety and soundness concerns, DOS
requested the OCC to allow 3 FDIC examiners to participate in the next full-scope
examination scheduled during 1998. In a response dated February 26, 1998, the OCC’s
Washington Director, Special Supervision, denied the request stating that there was no
evidence to indicate that Keystone’s capital was significantly threatened by the bank’s
operational and managerial deficiencies. The letter also stated that the FDIC’s
participation in the next exam would be unnecessarily burdensome to the bank and that if
DOS believed that participation was necessary, its case should be presented to the FDIC
Board. Under FDIC policy, the DOS Director was required to request backup authority
from the FDIC Board of Directors, in light of the denial. As a result, DOS prepared a
Board case for backup examination. In June 1998, prior to the case’s presentation to the
Board, the OCC reversed its position, but allowed only 2 DOS examiners to participate in
the examination of Keystone as of August 31, 1998.




                                           6
According to DOS, pre-examination discussions between the FDIC and the OCC
concerning the August 31, 1998 examination indicated that the examiners would remain
on-site until all questions about the bank’s accounting and record-keeping were answered
and conclusions to examination objectives were completed. However, the OCC
withdrew all of the examiners from the on-site portion of the examination after only 15
workdays, leaving Keystone’s accountants to continue their work with respect to account
balancing and residual valuation. The examination revealed that conditions at Keystone
had continued to deteriorate and the OCC assigned the bank a composite CAMELS rating
of 4. The FDIC lowered the composite rating to a 5 based on a range of factors that
included: brokered deposits acquired in apparent violation of the law,3 poor asset quality
based on a concentration of high loan-to-value loans and by-products, poor data integrity,
questionable capital, overstated earnings, and weak management.

In the months following the 1998 examination, DOS continued to experience problems
gaining the OCC’s full cooperation. Because of the seriousness of Keystone’s problems,
DOS had asked the OCC to notify DOS of meetings that were scheduled by the OCC to
discuss/evaluate the Keystone situation and to provide DOS with copies of all
correspondence between the OCC and the bank. However, DOS noted instances where
meetings were held to which the Division had not been invited. Additionally, in
reviewing the OCC’s online Supervisory Monitoring System (SMS), DOS learned of
correspondence that had been exchanged between the OCC and Keystone, copies of
which had not been provided to the Division.

Due to the bank’s steadily worsening condition, the OCC started a safety and soundness
examination of Keystone in June 1999, in conjunction with its review of the bank’s Year
2000 readiness. At this point, the OCC was cooperating fully with the FDIC and allowed
the DOS Atlanta office to participate in the exam with as many examiners as DOS
deemed necessary.


Conclusion

The events leading to the recent failure of Keystone demonstrate the critical need for the
FDIC to receive the full cooperation of the primary federal regulator at the first sign of a
substantive safety and soundness issue, regardless of the institution’s size. The OCC’s
reluctance to allow DOS examiners to evaluate a number of concerns relative to the
bank’s heavy concentration in subprime property improvement loans may have prolonged
the bank’s period of operation and added to the projected insurance fund loss. Post-failure
analyses will likely conclude that the Keystone situation could have been managed more
effectively and that cooperation between the OCC and the FDIC was inadequate.
Keystone’s closing may serve to heighten awareness of the benefits of coordination
among regulators whenever an institution presents a significant insurance risk.



3
   Section 29 of the FDI Act requires adequately capitalized banks to obtain a waiver from the FDIC before
accepting brokered deposits, and prohibits undercapitalized banks from accepting any brokered deposits.


                                                    7
DOS’s role in conducting backup examinations provides an important internal control
function for the deposit insurance funds. Under FDI Act section 10(b)(3), the FDIC’s
Board of Directors can authorize FDIC examiners to conduct any special examination of
any insured depository institution for insurance purposes. While DOS’s usual practice is
to review and rely on the examination reports of the other regulators, this special
examination provision of the Act serves as an internal control checkpoint by which the
FDIC, as insurer, can provide a secondary level of onsite review for institutions posing a
higher risk profile to the deposit insurance funds. However, the current delegation of
authority from the Board to DOS reduces the effectiveness of this internal control.

To conduct special exam activities under the current delegation, DOS must first obtain
the concurrence of the primary federal regulator or go through the process of preparing a
Board case and seeking Board approval. As demonstrated in the case of Keystone, the
restrictions imposed by the current delegation can allow the primary federal regulator to
significantly influence the timing and scope of the FDIC’s backup examination, reducing
the benefit of the secondary level of review. Requiring concurrence by the primary
federal regulator may impair the FDIC’s independence, may limit the control value of the
secondary level of review, and could be viewed as an organizational conflict. Requiring
Board approval on a case-by-case basis could delay the FDIC’s exam in potentially
critical situations, delay the start of action based on examination results, and detract from
the control aspect.

Accordingly, to ensure that the internal control offered by the special examination
provision functions as provided by law and that the FDIC takes the most effective
approach to monitoring risks to the deposit insurance funds, the FDIC needs to be given
expanded authority to conduct special examinations that supplement the exams of the
other regulators. A delegation from the Board could allow the FDIC to make an
independent decision to initiate special exam activities based on criteria of increased or
unusual risk to the funds, and not require case-by-case concurrence by the primary
federal regulator or the Board’s approval.


Suggestion:

To strengthen FDIC’s secondary review function for insurance purposes, we suggest that
the Chairman, FDIC:

1. Request delegated authority from the FDIC Board of Directors to the Chairman to
   initiate special examinations of insured institutions that pose significant safety and
   soundness concerns, without having to secure the concurrence of the primary federal
   regulator or the approval of the Board; or, seek a legislative change to vest this
   authority in the Chairman.




                                              8
BARRIERS THAT LIMIT THE EFFECTIVENESS OF DOS’S MEGABANK
MONITORING PROGRAM

As previously discussed, fewer and fewer financial institutions are controlling an
increasing percentage of the nation’s banking resources. Accompanying this trend has
been the development of new and significant risks to the deposit insurance funds as a
result of interstate banking and branching, greater use of financial derivative products,
expansion into foreign markets, and the emergence and rapid advancement of electronic
banking activities. DOS managers have serious concerns about the Corporation’s limited
knowledge of the risks posed by the activities of megabanks. Concerns expressed to us
included that the OCC and the FRB are not sharing all of the information that is available
to them and that much of the information that is made available to the FDIC is summary
in nature and historical in context. Thus, the preponderance of information available to
the FDIC does not focus on an institution’s present and future risk profile. As a result,
some DOS managers believe that a full-time FDIC on-site presence is necessary in the
very largest and most complex financial institutions to properly assess risk to the deposit
insurance funds and that this presence would represent an inevitable outgrowth of the
Corporation’s fiduciary responsibilities to the funds. DOS’s role would be to supplement
the primary federal regulator’s efforts and focus on the institution’s risk profile from an
insurance perspective.

In performing our review, we pursued two key issues facing DOS in assessing insurance
fund risks in megabanks. First, we attempted to assess the effectiveness of the case
manager approach DOS has employed to monitor megabank activities and their insurance
risks. Second, we attempted to identify the types of information that DOS requires from
the primary regulators for monitoring purposes but does not get.

The foundation of DOS’s decentralized approach to megabank monitoring is based on the
personal relationships that case managers have developed with their counterparts in the
other regulatory agencies. A May 28, 1999 best practices memorandum from DOS
Washington to all regional directors dealing with this subject states that “A case
manager’s (CM) ability to develop strong and effective working relationships with
primary regulator (PR) counterparts is considered critical to properly evaluate institution
and systemic risks and to ensure that the FDIC’s supervisory and insurance concerns are
effectively and expediently communicated to the PR.” This best practices memo resulted
from an effort undertaken during the latter part of 1998. According to DOS management,
as a result of an agreement in late 1998 between the former DOS Director and
representatives from the OCC and the FRB, CMs for the 40 largest institutions developed
communications plans with their primary regulator counterparts. These communication
plans specify the frequency with which case managers are scheduled to meet with their
counterparts and list examination reports, memoranda, and other types of information that
the PR will routinely be providing to DOS. The May 28th memo summarized the best
practices and procedures that DOS Washington believes to be particularly effective in
enabling the CMs to appropriately evaluate covered institutions.




                                             9
We asked a number of DOS managers to articulate the types of information that they
believed they require from the other regulators to assess institutional risks but were not
receiving. We were told that no one in DOS has a complete understanding of all of the
information that is collected by the other regulators and that the types of information that
are needed to monitor a specific institution depend on the bank’s activities, initiatives and
plans at any point in time, and that these factors are continually being revised as bank
management reacts to and anticipates changing economic and competitive conditions.
According to DOS management, when DOS asks the OCC or the FRB what information
is available, their response has been, “Tell us what you need.” DOS Washington
management suggested that the issue of what DOS needs might be clarified by discussing
the circumstances involving specific institutions with the responsible case managers.

Our meetings with 20 case managers in 3 regions covered a variety of issues including
the case managers’ relationships with the other primary federal regulators, the types of
information they use to monitor their assigned banks, their level of knowledge relative to
megabank business activities, their workloads, the types of information they need from
the other regulators, the resident examiner concept, and the Large Insured Depository
Institution (LIDI) program.


CMs’ Effectiveness in Monitoring Megabanks Is Not Meeting DOS Washington’s
Expectations

During our discussions, DOS’s case managers characterized their relationships with their
primary regulator counterparts as cooperative, open, satisfactory, good, and, in several
instances, excellent. The CMs have arranged to meet with their OCC, FRB, and OTS
counterparts on a quarterly basis and to exchange phone calls and e-mail. In terms of the
frequency of meetings, the CMs feel 4 meetings a year is sufficient to stay
knowledgeable about their assigned institutions. We were told that the other regulators
are generally responsive to information requests and that the CMs get what they ask for.
We heard of only one instance where a request was denied. In this situation, a case
manager asked an OCC examiner for permission to review the minutes of a bank’s Board
of Director meetings and was told he could not. Bank board minutes are generally
available to other CMs.

The CMs told us there are 2 primary sources of information that they use to monitor bank
activities and any corresponding risks. The first source is information that is available to
the general public: 10K and 10Q reports (annual and quarterly financial statements filed
with the Securities and Exchange Commission), press releases, newspapers and
periodicals, and the internet, which includes news stories, stock quotes/analyses, and
reports from investment brokers. The second source of information is the PR.
Information routinely received includes reports of examination and the accompanying
transmittals, quarterly risk assessments, and various reports prepared by the banks. DOS
managers refer to many of these information products, including information obtained
from the OCC’s online Supervisory Monitoring System, as “filtered” because they are




                                             10
written, synopsized, or interpreted by the PR before they are made available to DOS.4 In
reviewing the CM communication plans, we also noted that some CMs are receiving
more information from their PR contacts than other CMs, and that this condition is being
addressed by DOS through the issuance of its May 28, 1999 best practices memorandum.

Almost all of the CMs told us that the usefulness of the PR examination reports is limited
because they present examination results in more general terms than do FDIC reports,
and because they do not contain enough detail on the risks associated with a bank’s
various business activities. In addition, these reports and other products received from the
PRs present information that is several months old and provide little insight concerning a
bank’s present or future activities.

As a result, almost all of the CMs we spoke with felt that the knowledge they possess on
their assigned megabanks is considerably less than what they believe DOS Washington
expects of them. On a scale of 1 to 10, with 10 representing complete knowledge of an
institution and its risks, many CMs believed they fell within the 5 to 6 knowledge range.
Several said they would place themselves lower on the scale, in the 2 to 4 range, and
several believed they rated an 8. Almost all of the CMs believe that on the scale we
described, Washington’s expectation ranges between 8 and 10. According to DOS
Washington management, the CMs are doing a good job in meeting goals and
expectations, given the information constraints under which they operate.

Another principal factor limiting the CMs’ level of knowledge relative to megabanks is
their workload. While some CMs devote most of their time to their assigned megabanks,
others do not. We noted that 8 of the 20 CMs we interviewed are responsible for between
45 and 94 other banks and have to divide their time accordingly. These CMs told us that
they are only able to allot 40 to 60 hours per quarter to their megabank, and that the
majority of this time is used in preparing their LIDI report. Most of their remaining time
is devoted to other assigned responsibilities such as monitoring their non-megabank
institutions, processing applications, and attending to Year 2000 issues.

Although the CMs expressed concerns about not being able to meet Washington’s
expectations regarding their level of knowledge on their megabanks, we believe the
current condition will continue based on our conversations with the CMs and on our
assessment of the recently prepared communication plans and information-sharing
arrangements. While these documents indicate that DOS is taking a step in the right
direction, they also demonstrate that the CMs will continue to evaluate risk exposures by
using data that is limited in detail and historical in perspective. An experienced CM
summed up the situation by saying that the information DOS is getting is useful to an
extent, but it does not tell the CMs where the banks are placing “their current and future
bets.” Having access to current information is especially critical today when trying to
gauge risk in a financial institution because of the speed with which shifts in investment
focus can occur and electronic transactions can take place.

4
   The OCC is replacing SMS with a system named ExaminerView, currently under development. The
FRB is also developing an information system named Bank Online National Database (BOND). Neither
system is currently available to DOS and developmental work is continuing.


                                                11
In our judgment, the CMs did not appear to be overly concerned regarding their
perceptions of the risks inherent in megabanks today. The CMs’ attitudes and
perceptions appeared to be strongly influenced by the solid financial condition of the
megabanks and the diversity of the megabanks’ activities. Thirty-seven of the 39
megabanks have been accorded a composite CAMELS rating of 1 or 2 (the other 2 banks
are rated a composite 3), the economy is healthy, bank operations have been highly
profitable, and many of the banks are predominantly involved in conservative activities.
In addition, some CMs pointed out that the largest banks, both conservative and
aggressive, are being closely watched on a full-time basis by other federal regulators that
have committed as many as 30 to 80 examiners to supervise a single institution. The
CMs are also confident that if they need to find out something they do not know, they
know whom to call to quickly get that information.

We also asked the CMs what types of information they feel they need from the other
regulators but are not receiving. The predominant response was that it is difficult to
know what to ask for if you don’t know what is available. They provided us with no
specific types of information that they need but are not getting. Some CMs mentioned,
however, that their knowledge of off-balance sheet items, such as derivative and hedge
fund products, was minimal. Several CMs doubted that the PRs knew much more than
they did about these items.

Interestingly, several CMs told us that the most effective way for them to understand the
risks posed by a megabank would be to have access to its middle management, to be able
to ask questions of bank managers and discuss bank activities. Although the CMs meet
with the PRs quarterly and some attend presentations made by bank officers, only 1 of the
CMs we spoke with has attended meetings between the PR and the megabank when
examination findings have been discussed. We feel it is important to note that none of
the other CMs has asked to attend such meetings, although some said that they had
dropped hints with the PR. The general feeling was that if the CMs asked, they would be
told “no” because of PR comments to the affect that the FDIC’s presence during
discussions of examination findings might make the megabanks uneasy or create
problems for the PR.

We also discussed the potential benefits of the FDIC establishing a full-time on-site
examiner presence at the megabanks. The comments we received regarding this issue
were divided fairly equally. About half of the CMs felt that resident examiners would
provide beneficial information and improve the CMs’ ability to monitor large institutions.
The remaining CMs told us that resident examiners are not really necessary and would
probably not provide much more insight than current practices. One CM of an extremely
large and complex institution said that it really would not matter if he was in the bank on
a full-time basis – the institution is so complex that he still would not understand
everything that was going on. He noted that if the PR needed 80 people to track the
bank’s nationwide activities, 1 FDIC examiner would be wasting his time.




                                            12
DOS management believes that some form of on-site presence in the largest and most
complex institutions is necessary to obtain current information to effectively assess
insurance risk. DOS management believes that on-site presence should only be requested
in instances where DOS cannot obtain adequate information to fulfill the FDIC’s deposit
insurance responsibilities off-site. The form of on-site presence would vary depending
on the institution, and could consist of participation in management or board meetings,
participation in reviews of risk areas, or primary regulator workpaper reviews, for
example. DOS’s role would be to supplement the primary federal regulator’s efforts and
focus on the institution’s risk profile from an insurance perspective. DOS evaluates risks
to the insurance funds presented by all insured institutions, including megabanks, and
shares its findings with the FDIC’s interdivisional Financial Risk Committee, of which
DOS is a member.


LIDI Reports Provide Insufficient Feedback

The primary means for CMs to communicate their observations and concerns to DOS
Washington about megabank activities and insurance risks is the quarterly large insured
depository institution (LIDI) report. The comments we received on the LIDI process
were very similar to those received during a recent OIG study of the DOS Case Manager
Program, the results of which were communicated to DOS in an evaluation report dated
March 31, 1999. One DOS Washington manager summed up his opinion regarding the
usefulness of the reports by saying that the information they deal with is not timely and
provides little value to Washington. He also commented that without the LIDI reports,
Washington would have nothing.

On June 2, 1999, DOS Washington issued a Regional Director Memorandum containing
interim revisions to the LIDI program that were designed to improve the usefulness of the
LIDI products and shorten processing times. On September 2, 1999, DOS Washington
issued another Regional Director Memorandum on LIDI program enhancements. The
OIG has not had an opportunity to evaluate the impact these memoranda have had on the
LIDI program.


DOS Washington’s Guidance to the CMs Has Created Uncertainty

Based on the work we have performed, we believe that the megabank CMs do not clearly
understand what DOS management expects of them regarding the evaluation of insurance
risks. In our meetings with the CMs, we discussed their views of Washington’s
expectations that pertain to understanding a megabank’s risk profile. As we previously
mentioned, most of the CMs believe they are not meeting Washington’s expectations.
We also reviewed the CMs’ plans for obtaining information from and meeting with their
PR counterparts (the communication plans).

The information obtained by DOS on a particular megabank has been largely left to the
CMs’ discretion, as was evidenced by differences in the level of detail in the



                                           13
communication plans they developed. The plans indicate that some CMs have been
obtaining and evaluating more information than their peers do, even in the same region.
DOS also noted these differences in its May 28, 1999 best practices memo, stating that
not all CMs are aware of or receiving analytical products that are available through the
PR. While the memo will help address this situation, it may not go far enough in terms of
articulating what is specifically expected of the CMs in their efforts to monitor and assess
insurance risks. For example, the memo states that DOS Washington has compiled a
listing of essential types of information that the CMs may wish to request from their PR
counterparts. This statement may raise a question in the minds of some CMs – if certain
information is essential to understanding the risks posed by a megabank, why should
obtaining and using this information be discretionary? Also, the memo does not address
the fact that the megabanks supervised by the OCC are centrally managed from
Washington, and what impact this arrangement should have in developing and refining
communication plans.

We also noticed that the best practices memo may be sending an incomplete message to
the CMs because it focuses on information products that many CMs consider to be of
limited value, since they contain data that is historical in perspective and may be several
months old. Because of the potential risks that can quickly occur in today’s volatile
financial markets, DOS management should stress to the CMs the importance of
obtaining from the PR, to the extent feasible, real-time information on megabank
activities. CM monitoring efforts might yield more effective results if greater emphasis is
placed on currently developing risks as opposed to situations that existed 3 to 6 months
ago.

The best practices memo also discusses CM requests to participate in bank/board
meetings. It states that such requests should be generally limited to the largest and most
complex institutions and those institutions in a troubled or deteriorating condition. We
believe this guidance to the CMs may need further clarification. When the memo refers
to the largest and most complex institutions, it is not clear whether DOS is referring to
the 3 largest banks in the country, the 6 largest, or the 20 largest. It is also not clear
whether the memo was referring to the largest banks in each region or the country as a
whole.

This section of the memo may raise another relevant concern for the CMs when it states
that a CM should not request to attend a meeting unless the bank is in a troubled or
deteriorating condition. The purpose of continually assessing the risks present in the
largest institutions is to be forewarned of pending trouble, and this would seem to be a
valid reason for CMs to attend meetings on a routine basis. Waiting for the development
of a deteriorating condition before attempting to fully understand all of the circumstances
relating to a safety and soundness concern is inconsistent with an effective monitoring
program designed to quickly identify and deal with problems as they arise.

The best practices memo also conveys the message that because the OCC does not want
the FDIC present in its meetings with bank management, the CMs shouldn’t ask. In
meetings between our offices, DOS management explained that because of the insurance



                                            14
risks posed by this country’s megabanks, the FDIC in its capacity as insurer has a clearly
defined need to obtain all current information that the other PRs develop on their
megabanks. We believe that the message conveyed to the CMs in DOS’s May 28th
memo may not reflect the commitment that DOS management expressed to us concerning
their desire to gain access to all available information, including discussions with bank
managers that pertain to examination results.


Conclusion

Over the past several years, the nation’s banking industry has experienced unprecedented
consolidation that has created a number of extremely large and complex financial
conglomerates. Of the $4.5 trillion in assets controlled by the 39 largest institutions, the
FDIC is the primary regulator for only $77 billion in 2 institutions. Since the Corporation
does not have a presence in the other 37 institutions, it is heavily dependent on the other
federal regulators to provide the FDIC with the information it needs to monitor megabank
activities.

DOS’s approach to monitor the growing risks posed by the megabanks is based on a
decentralized strategy that relies on the abilities of its case managers, acting
independently, to develop effective relationships with their regulatory counterparts.
The case managers are responsible for obtaining information from the PRs, assessing
insurance risk, and communicating their observations and concerns to DOS Washington
in quarterly reports. The CMs have also been told that they are responsible for ensuring
that the FDIC’s supervisory and insurance concerns are effectively and expediently
communicated to the PR.

Our assessment of the effectiveness of DOS’s monitoring activities indicates that there is
a substantial gap between the CMs’ perceptions of what they believe DOS Washington
expects from them (in terms of being knowledgeable about their assigned megabanks)
and their actual level of knowledge. According to many CMs, DOS Washington’s
expectations are not being met, primarily because much of the information they have
access to is dated and/or does not contain sufficient detail to assess insurance risk. The
CMs describe the level of cooperation they receive from their regulatory counterparts as
satisfactory, and they generally receive the information they request. However, the CMs
are not sure of the universe of available information maintained by the PRs, nor are they
aware of the full range of a megabank’s off-balance sheet activities. Equally important,
the CMs are generally not permitted to attend meetings between the PRs and bank
management during which examination findings and supervisory concerns are discussed,
thus preventing the CMs from gaining valuable insights into institutional operations and
risks. Although the CMs have the information necessary to evaluate where a bank has
been, they are not being provided the opportunity to see where a bank is placing its
“current and future bets.” The effect of the conditions under which the CMs operate is
that DOS may not have a timely or comprehensive understanding of the emerging risks
that may be developing in the largest banks – that is, the banks that present the greatest
insurance risks.



                                            15
Effective supervision of the largest financial institutions, some with worldwide
operations, requires continual monitoring and the commitment of extensive resources on
the part of the OCC, the FRB and, to a lesser extent, the OTS. Although the FDIC is not
the primary regulator for most of the megabanks, it would be called on to deal with the
failure of a megabank and the financial consequences. Thus, the Corporation has a
compelling need to become more familiar with the activities of these institutions and with
the current development of any potential risks. Because it is not feasible for the FDIC to
attempt to duplicate the efforts of the other regulators, nor would the law permit such
duplication, we believe the Corporation needs to develop closer ties to its regulatory
counterparts and work toward obtaining real-time information relative to megabank
financial activities.

In today’s rapidly changing financial environment, the economic conditions faced by the
largest banks can change direction with very little warning. The near collapse of Long-
Term Capital Management and even the failure of Keystone underscore the dangers that
exist and highlight the need for banking regulators to work with each other and share
information. We believe, however, that the responsibility for raising the level of
cooperation that currently exists between the FDIC and the other regulators should not be
placed on the shoulders of DOS’s case managers, whose effectiveness may be limited by
factors that they cannot control, such as the willingness of their counterparts to share
information. Nor should the case managers be solely responsible for communicating to
the other regulators the Corporation’s supervisory concerns relative to megabank issues.

We believe that for the FDIC to become more successful in working with the OCC, the
FRB and the OTS, any efforts undertaken to enhance regulatory cooperation will need to
be initiated and pursued by the highest levels of corporate management. This holds
especially true for any information-sharing arrangements made with the OCC, since the
numerous megabanks it supervises are centrally managed from Washington. We believe
that developing detailed formal agreements with the other regulators would significantly
improve the FDIC’s ability to carry out its responsibility to monitor its insurance risk.
Given the strong financial health of the economy and the banking industry, now would
seem to be an opportune time for the FDIC to improve its information-sharing
arrangements, before the industry faces the next downturn in the economic cycle and the
regulators must deal with the ensuing problems.


Suggestions:

To improve the FDIC’s monitoring of risks presented by megabanks and other insured
institutions and to decrease the reliance on personal relationships between case managers
and their counterparts in other regulatory agencies, we suggest that the Chairman direct
DOS to:

2. Identify the specific information that DOS needs to monitor the insurance risk
   presented by megabanks and other insured institutions.



                                           16
3. Work to develop agreements with the other bank regulatory agencies that will allow
   for the provision of a consistent, minimum level of information/access for all FDIC
   case managers.

4. Establish well-defined criteria for case managers to use in evaluating the insurance
   fund risks posed by the megabanks and other insured institutions, and clearly
   articulate DOS’s monitoring goals and objectives.




                                           17
